                   Office of Audits
                   Office of Inspector General
                   U.S. General Services Administration



    DATE:              March 8, 2013
    TO:                Thomas A. Sharpe, Jr.
                       Commissioner, Federal Acquisition Service (Q)

                                                            Signed by

    FROM:              Theodore R. Stehney
                       Assistant Inspector General for Auditing (JA)
    SUBJECT:           Major Issues from Multiple Award Schedule Preaward Audits
                       Audit Memorandum Number A120050-3

This document provides an update regarding the three recurring issues we highlighted
in a September 26, 2011, memorandum. Specifically, we reported that for the Multiple
Award Schedule (MAS) preaward audits we conducted in fiscal year (FY) 2010:

            • The majority of vendors provided information that was not current, accurate,
            and/or complete to support their proposed prices.

            • Nearly half of the vendors had minimal or no non-federal commercial
            customers, making it impossible to use non-governmental commercial sales 1 as
            a basis for determining price reasonableness.

            • Over a quarter of the vendors we audited supplied labor that did not meet the
            minimum educational and/or experience qualifications required by the contracts.

Based on our review of FY 2011 MAS preaward audits, two of these areas showed
some improvement; however, the high rates of recurrence still remain a concern. We
are highlighting additional observations concerning the Industrial Funding Fee (IFF)
identified by our audits. We are also reporting the monetary results of our analyses
related to the recommended, agreed upon, and achieved savings for FY 2011 audited
MAS contracts as of October 1, 2012. We are providing this information to you so that
GSA can decide how to best address these issues.


1
    The term "commercial sales" as used throughout this memorandum refers to non-governmental sales.
Results

In FY 2011, GSA Schedule sales exceeded $38 billion. In this same year, we
performed 53 MAS preaward audits of contracts with approximately $8 billion in
estimated sales for their pending 5-year option periods. We recommended price and
discount adjustments that, if realized, would allow for over $326 million in cost
avoidances for customer agencies and ultimately savings for the taxpayer. Additionally,
we recommended over $9 million in recoverable overcharges.

Update of FY 2010 Issues

Commercial Sales Practices disclosures are not current, accurate and/or
complete. Over two-thirds of vendors we reviewed in FY 2011 provided contracting
officers with flawed commercial sales practices (CSP) information which adversely
affected the contracting officers’ determination of fair and reasonable pricing for those
contracts. This remains a problem but represents an improvement from our FY 2010
MAS preaward audit results.

In FY 2011, 42 of the 53 audits were based on information included in the vendors’
CSPs. In 29 of these audits (69 percent), we found that the CSPs contained non-
current, inaccurate, and/or incomplete information. In one case, approximately half of
the non-GSA sales received discounts that were greater than the vendor’s disclosed
discounts. If the greater discounts identified through these 29 MAS preaward audits
were negotiated, nearly $77 million in savings over the contracts’ 5-year option periods
would be realized by customer agencies and ultimately the United States taxpayers.
These savings represent the difference between the discounts on the flawed CSPs and
those we calculated using current, accurate, and complete information.


   Chart 1 - Prevalence of CSP Issues
   In FY 2010, 83% of audits found CSP issue(s). In FY 2011, 69% of audits found CSP issue(s).




Despite the improvement in CSP disclosures (see Chart 1), flaws in vendor CSP
information continue to be problematic. Therefore, we reaffirm the position, as stated in
our September 26, 2011, memorandum, that Federal Acquisition Service (FAS)

                                                 2
management should take action to ensure contracting officers appropriately and
consistently evaluate discount information.

Vendors have minimal or no commercial sales. Over one-third of FY 2011 MAS
preaward audits found that the vendors had minimal or no commercial sales, a slight
improvement from FY 2010. If there are no comparisons with commercial sales, the
identified basis of award customer may prove to be ineffective, and customer agencies
cannot be assured that they will benefit from pricing changes in the marketplace.

For 18 of 53 vendors (34 percent) audited in FY 2011, commercial customers
accounted for 5 percent or less of the vendor’s total sales. In seven instances, the
vendor had no commercial sales. In one case, a vendor stated that its commercial
business is separate from its government business. In fact, it acknowledged that sales
practices on the commercial side bear little resemblance to those on the government
side where the GSA contract is managed.




   Chart 2 - Prevalence of Limited Commercial Sales
      In FY 2010, 43% of vendors audited had commercial sales that accounted for 5% or less of their
      total sales. In FY 2011, 34% of vendors audited had commercial sales that accounted for 5% or
      less of their total sales.




Based upon the contracts we audited, the percentage of MAS vendors with minimal or
no commercial sales decreased from FY 2010 to FY 2011 (see Chart 2). This is
especially true in regard to the proportion of vendors with no commercial sales, which
decreased from 25 percent to 13 percent. However, FAS management should continue
to ensure that customer agencies are provided the opportunity for price reductions.

Vendors provide customer agencies with unqualified labor. One-third of FY 2011
MAS preaward audits found that GSA customers were overcharged for professional
services. The employees contracted to provide these services did not have the
minimum educational and/or experience qualifications proposed by the vendor and
required by their contracts. We found this issue to be more prevalent in FY 2011 than
we did in FY 2010.


                                                 3
We audited 21 service contracts and found 7 instances (33 percent) in which vendors
charged customer agencies for labor that did not meet the qualifications required by
their contracts. In one instance, we found that 43 percent of a vendor’s employees
assigned to GSA Schedule task orders during the audit period did not meet the
educational qualifications outlined in the contract. This indicates that customer
agencies did not receive the level of services they paid for.


    Chart 3 - Prevalence of Unqualified Labor
    In FY 2010, 27% of the service contracts audited had unqualified labor. In FY 2011, 33% of the
    service contracts audited had unqualified labor.




Since this issue has not shown improvement from FY 2010 (see Chart 3), we reaffirm
our assessment that contracting officers may not realize the extent or potential
ramifications of this problem. FAS management should take appropriate action to
ensure that vendors provide GSA and ordering agencies with individuals who possess
the labor qualifications specified under their contracts.

Additional Observations from FY 2011 MAS Preaward Audits

Vendors have inadequate systems to accumulate and report GSA Schedule sales
and are improperly computing IFF. 2 Over one-third of the vendors audited in FY
2011 had inadequate systems to accumulate and report schedule sales. In addition, the
IFF was not properly computed in many cases, resulting in monies owed to the
government.

The IFF (0.75 percent) is included in the award price of goods and services and is used
to cover the operating costs of the Schedules Program. The General Services
Administration Acquisition Manual Section 552.238-74, requires vendors to accurately
report schedule sales on a quarterly basis and to remit the IFF within 30 days of the end
of each reporting period.


2
 These two issues are not interdependent; therefore, audits may identify a vendor deficient in one area
but not the other.


                                                     4
Of the 53 audits we performed in FY 2011, 18 vendors (34 percent) did not have
adequate systems for accumulating and reporting schedule sales. We identified 19
vendors (36 percent) that did not properly compute the IFF. In one audit, over 12
percent of the GSA sales in the sample were not reported as such. As a result, we
estimated that the vendor underpaid IFF over the life of the contract by approximately
$84,000. While this case may not seem significant, the recurrence of this issue
throughout the Schedules Program would have a major monetary impact. FAS
management should strengthen controls to ensure schedule vendors have adequate
systems to accumulate and report schedule sales and ensure proper IFF payments.

Contracting officers fully agree with recommended cost avoidances but only
achieved savings for a portion of them. In FY 2011, FAS contracting officers agreed
with all of the auditors’ recommended cost avoidances but only achieved savings for 36
percent of this amount when the pending option periods were awarded (see Table 1). 3

    Table 1 -- Status of FY 2011 Recommended Cost Avoidances
                   Category                     Dollars                              Percent
    Auditors’ Recommended Cost               $240,177,868                               --
    Avoidances
    Contracting Officers’ Agreement to       $240,177,868                             100%
    Recommended Cost Avoidances
    Contracting Officers’ Achieved Cost       $85,716,396                              36%
    Avoidances

The contracting officer’s agreement represents his or her intent to use the audit findings
in establishing pre-negotiation objectives. We understand that negotiations involve
concessions on both sides; however, the Schedules Program represents billions of
dollars per year in government spending. While we commend the contracting officers
for their intent to use those figures in preparation for negotiations, we question the
achieved amount given the extent of their agreement.




3
  The calculations in this section were based upon auditors’ calculations and negotiation information
provided by contracting officers for 33 audits as of October 1, 2012.


                                                 5
Conclusion

The Schedules Program, with over $38 billion in sales in FY 2011, is the largest
interagency contracting vehicle in the Federal Government. It is imperative that FAS
maximize the buying power of the United States. Based on the MAS preaward audits
performed in FY 2011, the prevalence of CSP issues and limited commercial sales have
improved since our September 26, 2011, memorandum. However, these problems
continue to exist, and further efforts are needed to provide optimum benefits for GSA
customers and the taxpayer. In addition, FAS should address the prevalence of IFF
issues and the rate of cost avoidances agreed upon versus the achieved savings.
Addressing the issues raised in this memorandum will assist FAS in strengthening the
effectiveness of the Schedules Program.

If you have any questions regarding this memorandum, please contact me or any of the
following:

   James Hayes                         jamesp.hayes@gsaig.gov       (202) 273-7321
   Deputy Assistant Inspector
   General for Acquisition
   Programs Audits

   Barbara Bouldin                     barbara.bouldin@gsaig.gov    (703) 603-0200
   Program Director
   Acquisition Programs Audit Office




                                         6
Distribution

Commissioner, Federal Acquisition Service (Q)

Acting Deputy Commissioner (Q1)

FAS Chief of Staff (Q0A)

FAS Controller (QB)

Assistant Commissioner, Office of Acquisition Management (QV)

Division Director, GAO/IG Audit Response Division (H1C)

Director, Business Analytics and Consulting Division (QB0A)

Deputy Assistant Inspector General for Investigations (JID)

Deputy Assistant Inspector General for Acquisition Programs Audits (JA)

Program Director, Acquisition Programs Audit Office (JA-A)

Director, Audit Planning, Policy, and Operations Staff (JAO)




                                           7
